HHS/OIG, Audit - "Medicaid Payments for Beneficiaries with Concurrent Eligibility
in Michigan and Ohio - Michigan Department of Community Health,"
(A-05-06-00020)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Beneficiaries with
Concurrent Eligibility in Michigan and Ohio - Michigan Department of Community Health," (A-05-06-00020)
August 28, 2006
Complete
Text of Report is available in PDF format (698 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine the appropriateness of Medicaid payments made
by the State of Michigan for beneficiaries who were concurrently listed as Medicaid eligible
in both Michigan and Ohio for the period October 1, 2002, through September 30, 2003.  We
found that the Michigan Medicaid program inappropriately paid $843,228 for 617 Medicaid beneficiaries
who had established eligibility in both States but should only have been eligible in Ohio.  We
did not determine the allowability of an additional $100,575 of payments made during the
first month of concurrent eligibility because Michigan considers the beneficiary eligible
for the entire month once eligibility is established.
We recommended that the Michigan Department of Community Health (State agency):  (1)
seek recovery of inappropriate payments, estimated to be $843,228 ($467,317 Federal share),
and refund the Federal share of recovered amounts; (2) review claims made in the first month
of concurrent eligibility and determine whether the payments are allowable; and (3) consider
additional procedures for identifying beneficiaries moving out of State, including participation
in the Public Assistance Reporting Information System (PARIS) project and increased sharing
of eligibility information with the other State Medicaid programs.  Michigan officials
agreed that they should not make Medicaid payments for beneficiaries who established residency
in another State, but declined to seek recovery of the questioned costs.  We believe
that the State agency can and should attempt to recover inappropriate Medicaid payments.